<html>
<title> - LEGISLATIVE HEARING ON H.R. 2234, THE TUMACACORI NATIONAL HISTORICAL PARK BOUNDARY REVISION ACT OF 2001; AND H.R. 2238, A BILL TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO ACQUIRE FERN LAKE AND THE SURROUNDING WATERSHED IN THE STATES OF KENTUCKY AND TENNESSEE FOR ADDITION TO CUMBERLAND GAP NATIONAL HISTORICAL PARK, AND FOR OTHER PURPOSES.</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                        H.R. 2234 AND H.R. 2238

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 13, 2001

                               __________

                           Serial No. 107-75

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


76-086              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 13, 2001................................     1

Statement of Members:
    McConnell, Hon. Mitch, a U.S. Senator from the State of 
      Kentucky, Statement submitted for the record on H.R. 2238..     6
    Pastor, Hon. Ed, a Representative in Congress from the State 
      of Arizona.................................................     7
        Prepared statement on H.R. 2234..........................     8
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 2234 and H.R. 2238............     2
    Rogers, Hon. Harold, a Representative in Congress from the 
      State of Kentucky..........................................     2
        Prepared statement on H.R. 2238..........................     5

Statement of Witnesses:
    Bowling, Karla L., Executive Director, Bell County Chamber of 
      Commerce, Middlesboro, Kentucky............................    22
        Prepared statement on H.R. 2238..........................    24
    Russell, Elise, Legislative Analyst, Conservation Policy, 
      National Parks Conservation Association, Washington, D.C...    19
        Prepared statement on H.R. 2234..........................    20
    Soukup, Dr. Michael, Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................    12
        Prepared statement on H.R. 2234..........................    13
        Prepared statement on H.R. 2238..........................    17

 
 LEGISLATIVE HEARING ON H.R. 2234, THE TUMACACORI NATIONAL HISTORICAL 
PARK BOUNDARY REVISION ACT OF 2001; AND H.R. 2238, A BILL TO AUTHORIZE 
THE SECRETARY OF THE INTERIOR TO ACQUIRE FERN LAKE AND THE SURROUNDING 
   WATERSHED IN THE STATES OF KENTUCKY AND TENNESSEE FOR ADDITION TO 
    CUMBERLAND GAP NATIONAL HISTORICAL PARK, AND FOR OTHER PURPOSES.

                              ----------                              


                       Tuesday, November 13, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee on 
National Parks, Recreation and Public Lands hearing on H.R. 
2234 and H.R. 2238 is now in session, and I want to welcome 
those that are here to review those two bills.
    The Subcommittee will come to order. This afternoon the 
Subcommittee on National Parks, Recreation and Public Lands 
will hear testimony on two bills, H.R. 2234 and H.R. 2238.
    Our first bill, H.R. 2234, is introduced by Congressman Ed 
Pastor of Arizona. It would expand the boundary of Tumacacori 
National Historical Park in the State of Arizona to include 
approximately 310 acres of land adjacent to the park. The 
boundary expansion would allow the Park Service to replant the 
mission orchard and add a program with livestock farming as 
well as develop more of the Juan Bautista de Anza National 
Historic Trail.
    Our second bill is H.R. 2238, introduced by Congressman 
Harold Rogers of Kentucky, which would permit the Secretary of 
the Interior to purchase Fern Lake and the surrounding 
watershed in Tennessee and Kentucky for addition to the 
Cumberland Gap National Historical Park. The boundary expansion 
would allow the National Park Service to preserve the important 
Fern Lake watershed as well as ensure the water supply for the 
City of Middlesboro, Kentucky is protected for generations to 
come.
     At this time I would like to ask unanimous consent that 
Congressmen Pastor and Rogers be permitted to sit on the dias 
following the statements. Without objection, I assume, so 
ordered.
    And I would like to thank all of the witnesses for being 
here today, and would turn my time over to Mrs. Christensen. 
She sends her regrets, She is on the airplane as we speak, 
coming to Washington.
    [The statement of Mr. Radanovich follows:]

Statement of Hon. George Radanovich, a Representative in Congress from 
                        the State of California

    Good afternoon and welcome to the hearing today. The Subcommittee 
will come to order. This afternoon, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on two bills--H.R. 
2234 and H.R. 2238.
    Our first bill, H.R. 2234, introduced by Congressman Ed Pastor of 
Arizona, would expand the boundary of the Tu-ma-cacori National 
Historical Park in the State of Arizona to include approximately 310 
acres of land adjacent to the park. The boundary expansion would allow 
the Park Service to replant the mission orchard and add a program with 
livestock and farming, as well as develop more of the Juan Bautista de 
Anz National Historic Trail.
    Our second bill, H.R. 2238, introduced by Congressman Harold Rogers 
of Kentucky, would permit the Secretary of the Interior to purchase 
Fern Lake and the surrounding watershed in Tennessee and Kentucky for 
addition to Cumberland Gap National Historical Park. The boundary 
expansion would allow the National Park Service to preserve the 
important Fern Lake watershed as well as ensure that the water supply 
for the city of Middlesboro, Kentucky, is protected for generations to 
come.
    At this time, I would like to ask unanimous consent that 
Congressman Pastor and Congressman Rogers be permitted to sit on the 
dias following their statements. Without objection [PAUSE], so ordered.
    I would like to thank all of our witnesses for being here today to 
testify on these bills and now turn the time over to Mrs. Christensen.
                                 ______
                                 
    Mr. Radanovich. So I will turn it over to Mr. Hefley, if 
you have got any opening comments.
    Mr. Hefley. No comments, Mr. Chairman.
    Mr. Radanovich. Well, thank you. I will introduce our first 
panel. Congressman Harold Rogers. Harold, good afternoon. And 
please take the time needed to discuss your bill, H.R. 2238.

   STATEMENT OF THE HON. HAROLD ROGERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF KENTUCKY

    Mr. Rogers. Mr. Chairman, thank you very much, and Mr. 
Hefley, for this opportunity that you have given us to discuss 
these bills. The bill that I am testifying on behalf of, 2238, 
was introduced jointly by Senator McConnell and myself earlier 
on this year. I appreciate the Chairman's willingness to 
reschedule this hearing in a timely manner to accommodate us. 
We appreciate it very much. I know how difficult it has been to 
get in this building lately, and we would hope and trust that 
they have done a good job in preparing it for us.
    I also want to introduce Karla Bowling from Middlesboro, 
Kentucky who will be testifying on the second panel in support 
of this important legislation.
    She is the president of the local Chamber of Commerce in 
Middlesboro, Kentucky, and hardly any one in Middlesboro would 
know more about the tremendous economic and recreational 
potential this legislation could bring to that region. I thank 
her for traveling so far on such short notice to provide this 
valuable insight.
    Mr. Chairman, this bill is an essential piece of 
legislation which will forever protect one of the most pristine 
areas in the Commonwealth of Kentucky for future generations. 
The bill aims to incorporate Fern Lake, an unspoiled body of 
water nestled in the Appalachian Mountains on the Kentucky-
Tennessee border, into the Cumberland Gap National Historical 
Park.
    And if the Chairman and Mr. Hefley will notice, we have 
some photographs before you of the property about which we are 
talking. As you can see from those pictures and your folders, 
the lake and the surrounding watershed are of unparalleled 
beauty. Each photo captures the essence of what thousands of 
park visitors already experience each year, because this 
particular landscape is visible from Pinnacle Overlook, which 
is the prime spot of the Cumberland Gap National Historical 
Park, and the most popular attraction. This is what you see 
from that pinnacle, at least some of it.
    It is not hard to understand why this legislation is 
needed, looking at these photographs, and why the Congress 
should act quickly to ensure its preservation.
    Mr. Chairman, in true democratic form, this legislation 
finds its roots in a citizen petition delivered to me by the 
mayor of Middlesboro, Ben Hickman. From there we sat down with 
the National Park Service and brought them together with local 
officials to create this win-win opportunity for the park and 
the entire region.
    In short, the bill will protect the lake as a clean and 
safe source of water, enhance the scenic, recreational, and 
wildlife value of the park, and increase tourism opportunities 
in the tri-State areas of Kentucky, Virginia, and Tennessee.
    For those who are unfamiliar with this part of the world, 
the Cumberland Gap National Historical Park is 20,000 acres of 
virtually untouched frontier countryside established by the 
Congress in 1940. It is being called and has been called the 
``first frontier'', where Daniel Boone blazed a trail through 
these mountains. This gap in the mountains is the only place 
along hundreds of miles where access was possible in the late 
18th century, and led the way for thousands of other settlers 
to find a new start in this new world.
    And so many of those who live west of Kentucky, their 
ancestors came through this gap on the way to the settlement of 
what is now the western U.S. The Congress rightly recognized 
the importance of permanently protecting this frontier. Today, 
you are being asked to continue these endeavors by approving 
this Fern Lake addition.
    Because of the conditions set forth in the original 
legislation, no appropriated funds can be used to purchase 
additional acreage unless specifically authorized by Congress. 
This bill provides that authorization and paves the way for an 
additional 4,500 acres to be included in the park, if willing 
sellers appear and if appropriations become available.
    One of the principal goals of the legislation is to ensure 
the continued use of the lake as a clean, safe water supply for 
the city of Middlesboro and environs. This dam was constructed 
in 1893, creating a 150-acre lake, and has been privately owned 
for most of its existence. Last year, however, the lake went up 
for sale on the open market, and there is considerable concern 
that a new owner may not share the same interests as the 
community.
    Mrs. Bowling will testify that the lake is the sole water 
source for the city, and many businesses in the area rely on 
the uncommon purity of the water for their livelihood. Mrs. 
Bowling was relating to me a few minutes ago that she is 
staying overnight at one of our local hotels in Washington. She 
turned on the water faucet for a glass of water. And having 
been used to the purity of the water from Fern Lake, she was 
absolutely almost poisoned by the water she drank here. She 
said it tasted awful.
    So it is imperative that we keep this watershed free from 
the environmental hazards that overdevelopment might entail. 
Under the legislation, the city would be allowed to purchase 
Fern Lake water from the National Park Service, and in turn 
those proceeds could be used by the National Park Service for 
costs associated with managing the lake or other needs in the 
park.
    I understand the Park Service may offer clarifying language 
regarding the disposition of the water supply. I want to state 
for the record that I will continue to work with them to ensure 
that they have the flexibility that they need. I have no doubt 
the Park Service will prove to be a valuable steward of this 
land, and I have complete confidence in their ability to craft 
an acceptable solution that will meet the community's water 
resource needs.
    In fact, Mr. Chairman, the Park Service has already proven 
its willingness to work constructively and openly on areas of 
common concern. Whether it be protecting the rights of 
landowners or protecting the landscape in unwanted mining or 
commercial development, they have continually worked with the 
community to ensure their water supply would remain untouched 
and environmentally intact.
    More recently, their offices have worked closely with mine 
to ensure the language in this bill fully protects the private 
property rights of those holding land within the proposed 
acquisition boundaries. This was especially important to me 
personally, as I have been troubled with the actions and 
attitudes of previous administrations, and remain skeptical and 
cautious when the government starts talking of taking new 
Federal lands from private sources.
    In crafting this bill, we took great care to make sure an 
appropriate balance has been met between environmental 
protection and the needs of the community. This legislation 
builds upon the community's consensus and protects the property 
rights of all affected land owners.
    Not one parcel of this land will be acquired without the 
firm consent of the owner. This will not be a taking. Not one 
National Park Service management proposal will be implemented 
until community leaders from the tri-State area are consulted. 
These requirements are specified in bill language, with the 
Park Service's full support.
    Lastly, Mr. Chairman, it cannot be overstated how important 
this legislation is to the economic well-being of the citizens 
of the center of Appalachia. This proposed Federal investment 
in our rich cultural heritage would certainly bring a lot of 
added tourism revenue and jobs to an area that is absolutely 
starved of both. Tourism is an essential part of this region's 
economic development, and we have to seize every opportunity we 
can to further strengthen that sector. We are leaving no stone 
unturned in continuing efforts to build the Appalachian economy 
and create quality jobs within the region.
    We hope that the Subcommittee agrees with this request. And 
we want to thank the Subcommittee and its Chairman, Mr. Hefley, 
and others for rescheduling the hearing to accommodate us and 
giving us every chance to make our case.
    [The statement of Mr. Rogers follows:]

Statement of Hon. Harold Rogers, a Representative in Congress from the 
                           State of Kentucky

    Good afternoon, Chairman Radanovich, and other members of the 
Subcommittee. I am pleased to have the opportunity today to discuss 
H.R. 2238, the Fern Lake Conservation and Recreation Act of 2001, 
introduced jointly by Senator McConnell and myself earlier this year. I 
appreciate your willingness to reschedule this hearing in a timely 
manner. We all know how difficult it has been for your subcommittee to 
even function since the anthrax scare, so I'm grateful to be on the 
docket so soon after the reopening of your offices.
    I also want to introduce Ms. Karla Bowling from Middlesboro, 
Kentucky, who will also be testifying this afternoon in support of this 
important legislation. As the President of the local Chamber of 
Commerce, hardly anyone in Middlesboro knows more about the tremendous 
economic and recreational potential this legislation could bring to the 
community, and I thank her for traveling so far on such short notice to 
provide this valuable insight.
    Mr. Chairman, the bill before you today is an essential piece of 
legislation, which will forever protect one of the most pristine areas 
in the Commonwealth of Kentucky for future generations. The bill aims 
to incorporate Fern Lake, an unspoiled body of water nestled in the 
Appalachian Mountains on the Kentucky-Tennessee border, into the 
Cumberland Gap National Historical Park.
    As you can see from the pictures on display and in your folders, 
the lake and its surrounding watershed are of unparalleled beauty. Each 
photo captures the essence of what thousands of Park visitors already 
experience each year, as this spectacular landscape is visible from 
Pinnacle Overlook, the most popular attraction in the Park. Just from 
the photos alone, it is not hard to understand why this legislation is 
needed, and why Congress should act quickly to ensure its preservation.
    Mr. Chairman, in true democratic form, this legislation finds its 
roots in a citizen petition, which was delivered to me by Mr. Ben 
Hickman, the mayor of Middlesboro. From there, we sat down with the 
National Park Service and brought them together with local officials to 
create this win-win opportunity for the park and the entire region. In 
short, this bill will protect the lake as a clean and safe source of 
rural water, enhance the scenic, recreational, and wildlife value of 
the Park, and increase tourism opportunities in the tri-state areas of 
Kentucky, Virginia, and Tennessee.
    For those on the subcommittee who are unfamiliar with this part of 
the world, the Cumberland Gap National Historical Park is 20,000 acres 
of virtually untouched frontier countryside, established by Congress in 
1940. It is, as some say, the ``first frontier'', where Daniel Boone 
blazed the Cumberland Gap trail in the late 18th century, leading the 
way for thousands of other settlers hoping to find a fresh start in 
this new world. Congress rightly recognized the importance of 
permanently protecting this frontier, and today, you are being asked to 
continue these endeavors by approving the Fern Lake addition. Because 
of the conditions set forth in the original legislation, no 
appropriated funds can be used to purchase additional acreage unless 
specifically authorized by Congress. H.R. 2238 provides this 
authorization, and paves the way for an additional 4,500 acres to be 
included in the Park, if willing sellers appear, and appropriations 
become available.
    One of the principal goals of the legislation is to ensure the 
continued use of the lake as a clean, safe water supply for the city of 
Middlesboro. Constructed in 1893, the 150-acre lake has been privately 
owned for most of its existence. Last year, however, the lake went up 
for sale on the open market, and there is considerable concern that a 
new owner may not share the same interests as the community. As Ms. 
Bowling will testify, the lake is the sole water source for the city, 
and many businesses in the area rely on the uncommon purity of the 
water for their livelihood. It is therefore imperative that we keep 
this watershed free from the environmental hazards that over-
development entail. Under the legislation, the City would be allowed to 
purchase Fern Lake water from the National Park Service and those 
proceeds could be used for costs associated with managing the lake or 
other needs in the Cumberland Gap park.
    I understand that the Park Service may offer clarifying language 
regarding the disposition of the water supply, and I want to state for 
the record that I will continue to work with them to ensure they have 
the flexibility they need. I have no doubt that the Park Service will 
prove to be a valuable steward of this land, and I have complete 
confidence in their ability to craft an acceptable solution that will 
meet the community's water resource needs.
    In fact, Mr. Chairman, the Park Service has already proven its 
willingness to work constructively and openly on areas of common 
concern, whether it be protecting the rights of landowners or 
protecting the landscape from unwanted mining or commercial 
development. They have continually worked with the community to ensure 
their water supply would remain untouched and environmentally intact.
    More recently, their offices have worked closely with mine to 
ensure the language in the bill fully protects the private-property 
rights of those holding land within the proposed acquisition 
boundaries. This was especially important to me personally, as I have 
been troubled with the actions and attitudes of previous 
Administrations and remain skeptical and cautious when the government 
starts talking of new federal acquisition on private lands. In crafting 
this bill, we took great care to make sure an appropriate balance had 
been met between environmental protection and the needs of the 
community. This legislation builds upon community consensus and 
protects the property rights of all affected landowners. Not one parcel 
of land will be acquired without the firm consent of the owner. Not one 
National Park Service management proposal will be implemented until 
community leaders from the tri-state area are consulted. These 
requirements are specified in bill language, with the Park Service's 
full support.
    Lastly, Mr. Chairman, it can not be overstated how important this 
legislation is to the economic well being of the citizens of rural 
Appalachia Kentucky. This proposed federal investment in our rich 
cultural heritage would certainly bring added tourism revenue and jobs 
to this area, both of which are desperately needed in these trying 
times. Tourism is an essential part of our region's economic 
development, and we must seize every opportunity to further strengthen 
this sector. I am leaving no stone unturned in my continuing efforts to 
build the Appalachian economy and create quality jobs within the 
region. I hope I can have this subcommittee's support in continuing 
these endeavors.
    That concludes my remarks, and I would ask that a statement from 
Senator McConnell in support of the bill also be inserted in the record 
at this time.
                                 ______
                                 
    Mr. Rogers. Let me conclude by asking that a statement from 
Senator McConnell in support of the bill also be inserted in 
the record at this time.
    Mr. Radanovich. There being no objection, so ordered.
    [The information referred to follows:]

Statement of Senator Mitch McConnell, a U.S. Senator from the state of 
                                Kentucky

    Mr. Chairman, thank you for allowing me to submit a statement on a 
clean water and conservation issue that is critically important to my 
state - the acquisition of Fern Lake by the National Park Service.
    As you may know, on June 19, 2001, I introduced legislation in the 
Senate that parallels Congressman Rogers' legislation to authorize the 
National Park Service to acquire Fern Lake as an addition to the 
Cumberland Gap National Historic Park. Our bill, the Fern Lake 
Conservation and Recreation Act of 2001, aims to protect this natural 
landmark on the Kentucky-Tennessee border that has served as the 
municipal water supply for Middlesboro, Kentucky since the lake was 
constructed in 1893. Enabling the Park Service to acquire Fern Lake 
will accomplish important environmental, aesthetic, and economic 
objectives. First, NPS ownership of Fern Lake will ensure that the lake 
remains a clean and safe source of rural water for Kentuckians. Second, 
adding Fern Lake to the Cumberland Gap National Historical Park will 
undoubtedly enhance the scenic and recreational value of the Park. 
Third, NPS ownership of Fern Lake will increase tourism opportunities 
in the three states that border the Park - Kentucky, Tennessee, and 
Virginia - which will, in turn, increase economic development 
opportunities in these areas.
    Although Fern Lake has been privately owned for most of its 
existence, it has been for sale since July 2000. Middlesboro citizens, 
who rely on the Lake for their drinking water, are concerned that a new 
private owner may not share their level of interest in protecting the 
pristine quality of the water. To ensure that the quality of the lake 
is protected for drinking water purposes, community leaders and town 
residents have called for the Park to purchase Fern Lake. Under our 
legislation, the Park will be required to maintain Fern Lake as a 
source of clean drinking water, will be authorized to sell water to the 
city of Middlesboro, and will allow the Secretary of the Interior to 
spend the proceeds of the water sales without further appropriation. 
This solution would guarantee management of this wonderful resource 
consistent with the drinking water needs of the community.
    The Park currently is prohibited by law from expanding its 
boundaries by purchasing new land . with appropriated funds. Our 
legislation, therefore, authorizes the Park to use appropriated funds, 
if necessary, to purchase Fern Lake (and up to 4,500 acres of the 
surrounding watershed) and to manage the lake for public recreational 
uses. We recognize that the addition of Fern Lake to the Park will 
increase the scenic and recreational values of Fern Lake, which will 
enhance the tourism industry in three states - Kentucky, Tennessee, and 
Virginia. Accordingly, our legislation provides that the Secretary of 
the Interior will consult with appropriate officials in these states to 
determine the best way to manage the municipal water supply and to 
promote the increased tourism opportunities associated with Park 
ownership of Fern Lake. Finally, like all responsible conversation 
efforts, our bill requires that the Park acquire land from willing 
sellers only.
    The Department of Interior previously has demonstrated an interest 
in protecting the Fern Lake watershed area. In 1996, the Secretary 
declared 214 acres of the watershed on the Tennessee side of Fern Lake 
unsuitable for surface coal mining, and in 1998, the National Park 
Service took action again to protect the Kentucky side of the watershed 
from surface coal mining.
    Congressman Rogers and I believe that it is now time to provide 
permanent protection for Fern Lake by including it in the Cumberland 
Gap National Historic Park. We are proud that our legislation has been 
endorsed by the National Parks Conservation Association, as well as by 
the citizens and community leaders who are stakeholders in the Fern 
Lake property. I urge the Committee to give this legislation favorable 
consideration, paving the way for the National Park Service to protect 
this natural treasure.
                                 ______
                                 
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Rogers. And please feel free 
to join us on the dias when we--at any time for our next panel.
    Mr. Pastor, welcome.
    Mr. Rogers. Thank you. I appreciate it.
    Mr. Radanovich. Please feel free to go ahead and talk about 
H.R. 2234.

 STATEMENT OF THE HON. ED PASTOR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Pastor. First of all, let me submit my written 
statement for the record and ask unanimous consent to revise 
and extend my remarks.
    Mr. Radanovich. No objection, so ordered.
    Mr. Pastor. Good afternoon. I also would like to thank you 
for giving us this opportunity to talk about 2234 and also for 
rescheduling this hearing. And we greatly appreciate it.
    Tumacacori is located in southeastern Arizona, and it is 
one of the most beautiful national areas that you will find. 
Arizona has many wonderful natural wonders, but this one is 
extremely beautiful and pretty much undeveloped. In the 1600's 
as the Spaniards came from Mexico into Arizona and New Mexico 
and then north to other areas of the United States, they 
developed a series of missions, and Tumacacori is one of the 
missions that they established. So there is a lot of history in 
this area.
    In the 1900's President Roosevelt declared it a monument 
and set aside about 10 acres, and in the 1990's it became a 
park. We want to preserve the mission and also enhance the 
property by expanding the boundary by 310 acres.
    The owners of the land are willing to sell and have been 
working with the Park Service. And because we want to 
accommodate them, we need to move this bill as quickly as 
possible. So we have willing sellers. The Park Service has been 
working with the people adjacent to the mission.
    Once the boundaries are expanded, what we would like to do 
is protect a trail that borders the mission to Presidio further 
north, the de Anza Trail. It is a trail that starts in Mexico, 
extends through Arizona and into California and ends in San 
Francisco.
    It was one of the trails that was given a designation as 
``millennium trails.'' We have the Park Service that wants to 
expand the property. And what they expect to do is develop 
orchards that were founded in the early 1600's and then go on 
through the history of Tumacacori.
    Also, we would like to build administration buildings and 
storage buildings away from the mission. So that would be 
another objective of this extension of the boundaries.
    We would like to make this mission a living history 
mission. It is today being visited by people who travel in 
southeastern Arizona, and as they see the mission, we would 
like to enhance the mission by adding a living history.
    For example, today, if you were to travel to Tumacacori on 
the weekend, the Native Americans who live adjacent to the 
mission, you would be able to buy some of the artifacts that 
they produce and also some of the food, Indian fried bread, 
there at the mission.
    We also want to protect the area that has many artifacts. 
We want to preserve the history of this mission. It is a small 
place in history, but we think it has a large place in our 
civilization. And I know that this Subcommittee is wanting to 
preserve as much as we can of our history in this country, and 
by extending the boundaries of Tumacacori we will be able to 
enhance the mission and enhance the living history of it and 
preserve the history that we find in southeastern Arizona.
    So I thank you, Mr. Chairman, for having this hearing. I 
thank Chairman Hefley for being here, and my friend, Tom Udall 
from New Mexico. If there are any questions, we will be happy 
to answer them. But, again, very appreciative of having this 
hearing.
    [The statement of Mr. Pastor follows:]

  Statement of Hon. Ed Pastor, a Representative in Congress from the 
                            State of Arizona

    Mr. Chairman, Madam Ranking Member, Members of the Subcommittee:
    I appreciate the opportunity to come before you to discuss the 
Tumacacori National Historic Park Boundary Revision Act, H.R. 2234. I 
introduced the bill in June of this year in an effort to ensure that 
the complete historical importance of the Tumacacori National Historic 
Park is recognized.
    H.R. 2234 would authorize the expansion of the Park by 
approximately 310 acres of adjacent private property. It is my 
understanding the property owners are willing to sell and most of the 
acreage has already been listed.
    To offer the Subcommittee a small bit of Southwest history, 
Tumacacori is one of the chain of missions established by the Spanish 
in the Pimeria Alta, or land of the Upper Pima Indians, from Sonora, 
Mexico to San Xavier del Bac near Tucson, Arizona. After the 
establishment by Father Kino of the Mission San Cayetano de Tumacacori 
in 1691, a Jesuit church was built in the 1750's on the east side of 
the Santa Cruz River and the mission was renamed San Jose de 
Tumacacori.
    The present church sitting on the site was completed in 1822 by the 
Franciscans and in 1908, President Theodore Roosevelt set aside nine 
acres immediately around the church as the Tumacacori National 
Monument. Subsequent to that designation, boundary changes have 
enlarged the Monument, and in 1990 the detached missions of Guevavi and 
Calabazas were added and the Monument became a National Historical 
Park.
    The Park's General Management Plan called for the acquisition of 
additional lands so Park support facilities could be built away from 
the historic scene and to obtain the rest of the Mission orchard.
    Two large properties now border the Park. A 90 acre ranch lies to 
the south and east. This ranch contains the remains of the historic 
orchard and other Mission related cultivated lands. To the north and 
east, 220 acres of undeveloped lands contain remains of the Mission 
fields and sites that show numerous artifacts such as pottery, lithics, 
and fire hearths.
    The expansion of the Park's boundary would allow the Park Service 
to further enhance the visitor experience at Tumacacori, replant the 
orchard and add a living history program, and develop more of the Juan 
Bautista de Anza National Historic Trail that now exists on private 
land between Tumacacori and the town of Tubac.
    Last month, we passed the Department of Interior Appropriations Act 
which included almost a million dollars to construct administration and 
maintenance facilities at this Park, removing these functions from the 
viewed historical areas. This is an important first step taken by this 
Congress toward preserving the history of this monumental place and 
this meaningful time. I ask that you take the next step by increasing 
the boundaries of the Park.
    Mr. Chairman, as this Subcommittee knows and appreciates, 
preserving our history and heritage is crucial if we are to continue to 
grow as a civilization. This small Mission is a small part of that 
history, but it is a large part of the development of our civilization.
    I appreciate you holding these hearings, and I look forward to 
working with you and the Subcommittee, and Chairman Hansen and Ranking 
Member Rahall toward its expedited consideration. Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you. Any questions from any members?
    Mr. Radanovich. Mark--Tom, we will go with you and then 
Joel. Pardon me.
    Mr. Hefley. I would be happy for Tom to go first.
    Ed, is the trail still there, the trail you want to 
protect, or is it just a place where the trail was?
    Mr. Pastor. No, the trail is still there. In fact in 
spring, we have the de Anza days, and we have the recreation of 
Juan Bautista coming from Mexico into Arizona and following 
this trail. The trail is there and we want to preserve it. 
Right now it is in private hands and the owners of the private 
property are willing to sell it.
    So, the trail is there. We celebrate de Anza days. We want 
to make sure that it becomes part of the park.
    Mr. Hefley. What is still there of the mission? Is the 
mission still there?
    Mr. Pastor. The mission is still there. You can walk in. It 
is standing. It has been refurbished a number of times and well 
protected. So you can go in and see the mission that was there 
and developed in the 1600's. The mission is standing.
    Mr. Hefley. Well, that is certainly worth preserving. What 
is this going to cost us, Ed?
    Mr. Pastor. Well, I don't know, to be honest with you, 
because that is still being worked out. I think the sellers 
will settle down and give us some estimates. Appraisals will be 
taken. And I guess, probably, your Committee staff just told 
you what the number would be. But--.
    Mr. Hefley. They said $2 million.
    Mr. Pastor. Two million dollars. In this last 
appropriation, there was a million dollars in the Interior bill 
for the buildings, the administration building. And we will 
work hard to obtain the appropriation through the appropriation 
process.
    Mr. Hefley. Do you anticipate having an appraisal of that? 
Is that pretty much desert land?
    Mr. Pastor. It is high plateau, so Sonoran Desert.
    Mr. Hefley. Will there be an appraisal of that land?
    Mr. Pastor. I think so. I think we follow whatever process 
the Park Service has. And usually my experience has been it is 
appraised, and then negotiations start with the owners. And 
then once there is a final determination, then we go through 
the appropriation process in acquiring that land.
    Mr. Hefley. Okay. How big is this lake? I know we are 
talking 4,500 acres. But the lake itself, how big is that?
    Mr. Rogers. The lake is 150 acres. And all that they are 
proposing now to acquire is a total of 750 acres, which 
includes the 150-acre lake. The 150-acre lake and then 600 
acres surrounding property.
    The bill would authorize at some future time to acquire up 
to 4,500 acres, sort of as a catch-all. But they would have to 
have a willing seller, and we would have to find appropriations 
for that. But that is not anticipated at this time.
    Mr. Hefley. How much are we talking here for this?
    Mr. Rogers. For this 750 acres? I don't know. It is under 
negotiation. There has been--the Conservation Fund did an 
appraisal of the land last year when it first went up for sale. 
Their initial appraisal was $3.75 million.
    Mr. Hefley. For the lake and 700 acres?
    Mr. Rogers. For the total 750 acres, yes. But the owner is 
asking for 5 million. It was appraised last year for 3.75. It 
is a matter of negotiation.
    Mr. Hefley. Is it and will it continue to be, if it is, a 
recreational lake, a lake where people can fish, that kind of 
thing?
    Mr. Rogers. Absolutely. It is a beautiful--as you can see, 
a beautiful lake. It has one old fishing lodge on it now. The 
only development that I am aware of in this whole area is an 
old fishing camp on the lake. It will be in continuous use by 
the Park Service for recreational purposes. The Park Service 
can perhaps help better with that than me.
    If I can say this? This property was under threat to be 
surface mined until last year or so, when the State finally 
stepped in to block surface mining. So that is really what we 
are afraid of, that this valley would be surface mined and this 
lake spoiled.
    Mr. Hefley. Well, it sounds like a natural. I would suggest 
to you, coming from the West, and having dealt with the Federal 
Government on Federal reserve water rights, that you make sure 
those water rights are tied up for the city there, for the 
town, before anything is done; because, you know, you don't 
know what kind of an administration gets in and what they do 
with that. So that ought to be pretty clear in law. I hope you 
are planning to make sure of that.
    Mr. Rogers. Right. You are exactly on target. I think this 
bill devotes a lot of its attention to that very question. And 
the Park Service has been mighty nice to deal with on it so 
far. I feel confident that what you mentioned is true; it will 
be taken care of.
    Mr. Hefley. Thank you.
    Mr. Radanovich. Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman. Let me first say 
for the record that Ranking Member Rahall strongly supports 
both of these pieces of legislation and would like to see the 
Committee act upon them quickly.
    It looks to me today--with our two witnesses here, it looks 
like we have an appropriator's Committee day. And I was 
thinking, Mr. Chairman, that we might benefit a lot more if we 
could do these earlier in the year. It might be something that 
we might try in the future.
    Mr. Rogers. Would the gentleman yield?
    Mr. Tom Udall. Sure. I would be happy to yield.
    Mr. Rogers. We are here because we have already spent all 
of the money we can find over there. We are just looking for 
new sources here.
    Mr. Radanovich. They planned it this way.
    Mr. Tom Udall. Let me, first of all, just say a word about 
what Mr. Pastor has talked about in terms of the Spanish 
history. I know that Tumacacori has a strong Spanish history, 
in, as you mentioned, New Mexico and many of our western 
States. And I think that one of the things that people don't 
realize here in the United States is how deep those Spanish 
roots go.
    I mean, I have families in New Mexico that trace their 
lineage back 14 generations to the first Spaniard that came in, 
de Onate, in 1598. So there is that history, there is that 
tradition, and it is not known and understood. And I think by 
doing things like this national historic park, we preserve it 
there for people to learn about.
    So I think that it is very important to do a bill like 
this, and I applaud Congressman Pastor for coming forward with 
this. Just a couple of quick questions on the--my understanding 
is the management plan that was done in 1990, does that--does 
that management plan call for this expansion?
    Mr. Pastor. Yes, it does; because in the 1990's, they 
realized that in order to protect the mission, Tumacacori, and 
to make sure that the trail was also protected, that they would 
have to extend the boundaries. And the owners realized that. 
The owners of the land realized that. And because they also 
want to protect Tumacacori, they are willing to sell the 310 
acres, and so that is why we need to expand the park so that we 
can get into negotiations with the owners and protect 
Tumacacori.
    Mr. Tom Udall. Have been there been any appraisals of the 
310 acres?
    Mr. Pastor. I don't know. I am assuming that the land 
owners themselves probably have a sense of the value. But, the 
area is practically undeveloped. And it is next to the Santa 
Cruz River, and the potential for development in the future is 
great and the probability is getting greater. I think everybody 
understands that we need to protect the Tumacacori, the 
mission; and the best way to do it, to expand its boundaries. 
And the people who are selling the land also know the value of 
Tumacacori, and they are willing sellers.
    Mr. Tom Udall. Thank you. Thank you both for coming. I 
yield back, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Udall. Mr. Acevedo-Vila.
    Mr. Acevedo-Vila. I don't have any questions. I just want 
to offer my support to both bills.
    Mr. Radanovich. Thank you. Gentlemen, you are welcome to 
join us on the dias, thank you very much for testifying. And 
with that we will begin to seat our next panel.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you very much.
    With us now is Dr. Michael Soukup, who is with the National 
Park Service, Department of Interior; Ms. Elise Russell, who is 
the legislative analyst, Conservation Policy, of the National 
Parks Conservation Association; and Ms. Karla Bowling, 
executive director of Bell County Chamber of Commerce, 
Middlesboro, Kentucky. Welcome to the Subcommittee.
    Mr. Radanovich. Mr. Soukup, welcome again. I know that you 
will be here on a very regular basis. What I would like to do 
is start with you to comment on both bills. And then we will go 
to our other guest witnesses as well.

   STATEMENT OF MICHAEL SOUKUP, ASSOCIATE DIRECTOR, NATIONAL 
   RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Soukup. Thank you, Mr. Chairman. I would like to just 
summarize our written testimony which will be submitted to you.
    Mr. Chairman, we thank you for the opportunity to present 
the Department of Interior's position on H.R. 2234, and we 
extend our thanks and appreciation to Congressman Pastor for 
his interest in the resources and stories preserved and told at 
Tumacacori National Historical Park. The Department supports 
H.R. 2234.
    H.R. 2234 would amend Public Law 101-344, the act 
authorizing the establishment of Tumacacori National Historical 
Park, and expand the boundary of the park by adding two 
separate parcels.
    Tumacacori National Historical Park is a 45-acre unit of 
the national park system, because the mission is an outstanding 
example of 18th century Spanish Colonial architecture, and 
served as the source and center of a community and a way of 
life that survived for centuries in a harsh and demanding 
environment.
    To tell that story means more than protecting a building. 
It means presenting and protecting the resources that nourished 
it--its orchards, its crops, and its fields. The proposed 
additions to the boundary contain those resources.
    The 18th and 19th century Tumacacori mission encompassed 
not only a church and its associated compound, but also homes 
for the native people. The mission supported itself by what it 
could grow and graze on its lands along the Santa Cruz River. 
With this bill, future visitors would understand that the 
mission was not just a church, but a complete self-sustaining 
community.
    The nearby Santa Cruz River, a desert riparian area, is a 
vital educational tool to understand how the native and mission 
communities were able to develop and thrive in the desert.
    The park's general management plan of 1996 identified the 
need to acquire additional lands to obtain the rest of the 
mission orchards. The two parcels of private land proposed to 
be included in this Tumacacori National Historical Park 
boundary are a 90-acre parcel to the south and east, and a 220-
acre parcel to the north and east.
    The owners have expressed an interest in selling to the 
National Park Service. The acquisition cost for the two parcels 
are estimated at between 2- and $2-1/2 million, although actual 
costs would not be known until appraisals on the land are 
completed.
    In the future, funding would be needed to develop visitor 
use trails as well as to rehabilitate and replant the mission 
orchards as called for in the general management plan. No other 
visitor facilities will be built in the new areas.
    An additional 1.5 FTE--that is, positions--1-1/2 positions 
would be needed in personnel for the increased maintenance 
responsibilities. Costs to accomplish these projects would 
require one-time funding of approximately $250,000 for visitor 
trails, waysides, and bridge construction, and $100,000 to 
reconstruct and replant the orchard.
    H.R. 2234 has generated a cross-section of support. The 
county supervisor of the Santa Cruz County Board of 
Supervisors, whose district includes the park, has expressed 
support. Local community groups have expressed support for the 
legislation, including the Friends of the Santa Cruz River, the 
Anza Trail Coalition, and the Tubac Historical Society.
    On a technical point, we have discovered that there is a 
discrepancy between the name and the number on the map showing 
this proposed boundary and the map reference in this bill. In 
order to make the bill language consistent with the map, we 
suggest that the map title on page 3, line 9 and 10 be changed 
to read, ``Tumacacori National Historical Park, Arizona 
Proposed Boundary Revision 2001,'' and the map number on page 
3, line 11, be changed to read ``310/80,044.'' .
    Mr. Chairman, this concludes my remarks on H.R. 2234.
    [The prepared statement of Mr. Soukup on H.R. 2234 
follows:]

 Statement of Dr. Michael Soukup, Associate Director, Natural Resource 
             Stewardship and Science, National Park Service

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2234. This bill would revise 
the boundary of Tumacacori National Historical Park in the State of 
Arizona. We extend our thanks and appreciation to Congressman Pastor 
for his interest in the resources and stories preserved and told at 
Tumacacori National Historical Park (NHP).
    The Department supports H.R. 2234. The legislation would allow the 
park to fulfill the original purposes for which it was established, 
create more opportunities to expand educational and recreational 
partnerships within the new boundary and beyond, and has received the 
support of the surrounding community. Expanding the boundary of 
Tumacacori NHP would fulfill one of the goals identified in the park's 
approved General Management Plan, and the owners of the lands proposed 
for addition have expressed a willingness to sell.
    H.R. 2234 would amend Public Law 101-344, the Act authorizing the 
establishment of Tumacacori National Historical Park, and expand the 
boundary of the park by adding two separate parcels, which are adjacent 
to the original Tumacacori unit of the park and total approximately 310 
acres. The legislation also defines the purpose for adding these lands.
    Tumacacori National Historical Park is a 45-acre unit of the 
National Park System because the mission is an outstanding example of 
18th century Spanish Colonial architecture and served as the source and 
center of a community and a way of life that survived for centuries in 
a harsh and demanding environment. To tell that story means more than 
protecting a building. It means protecting the resources that nourished 
and maintained it - its orchards, crops, and fields. The proposed 
additions to the boundary contain these resources.
    Tumacacori is one of a chain of missions established by the Spanish 
in the Pimer!a Alta (land of the Upper Pima Indians) from Sonora, 
Mexico to San Xavier del Bac near Tucson. Father Kino established 
Mission San Cayetano de Tumacacori approximately forty miles south of 
present day Tucson in 1691. At its height, the mission land grant 
included nearly 6,000 acres.
    Theodore Roosevelt set aside 9 acres immediately around the church 
as Tumacacori National Monument in 1908. The boundary of the monument 
was revised with the addition of 6 acres in 1978. In 1990 the missions 
of Guevavi (8 acres) and Calabazas (22 acres), to the south along the 
Santa Cruz River, were added and the park redesignated a National 
Historical Park.
    The 18th and 19th century Tumacacori Mission encompassed not only a 
church and its associated compound, but also homes for the native 
people. The mission supported itself by what it could grow and graze on 
its lands along the Santa Cruz River. Vegetables and fruits grew in a 
large (5 acre) walled orchard and garden irrigated by the acequia 
(irrigation ditch). Eventually homesteaders settled mission lands, and 
by the time Tumacacori National Monument was set aside all of the 
former mission lands were in private ownership. Today the mission 
stands divorced from its land and people. One quarter of the historic 
orchard and its still visible wall remains. The majority of the 
acequia, mission farmland and a section of the Santa Cruz River all lie 
on adjacent private land.
    The park's General Management Plan (1996) identified the need to 
acquire additional lands to obtain the rest of the mission orchard. 
Acquisition of the entire historic remains of the orchard, former 
mission farmlands and the acequia would allow the park to recreate a 
19th century cultural landscape. Future visitors would understand that 
the mission was not just a church but a complete self-sustaining 
community. The nearby Santa Cruz River, a desert riparian area, is a 
vital educational tool to understand how the native and mission 
communities were able to develop and thrive in the desert. In addition, 
expansion of the park boundary would allow the National Park Service to 
enhance the recreational experience of visitors along the Juan Bautista 
de Anza National Historic Trail between Tubac and Tumacacori as well as 
partner with communities all along the Santa Cruz River to further 
develop the recreational and educational values of the trail.
    The two parcels of private land proposed to be included in the 
Tumacacori NHP boundary are a 90-acre parcel to the south and east and 
a 220-acre parcel to the north and east. The owners have expressed 
their interest in selling to the National Park Service. Acquisition 
costs for the two parcels are estimated at $2,000,000 to $2,500,000, 
although actual costs would not be known until appraisals on the land 
are completed. A non-profit group may be willing to purchase the 
properties and hold them for a short period of time until the National 
Park Service is able to designate land acquisition funding.
    Since the National Park Service intends to return the proposed 
additional lands to a 19th century cultural landscape there will be 
little additional park operational funding needed. Park staff would be 
able to provide a basic level of resource protection to lands that are 
acquired through existing financial resources. In the future, funding 
will be needed to develop visitor use trails as well as to rehabilitate 
and replant the mission orchard as called for in the General Management 
Plan. No other visitor facilities will be built in the new areas. An 
additional 1.5 FTE would be needed in personnel for the increased 
maintenance responsibilities. Costs to accomplish these projects would 
require one-time funding of approximately $250,000 for visitor trail, 
waysides and bridge construction and $100,000 to reconstruct and 
replant the orchard. A $78,000 base increase for maintenance staff 
would be needed.
    H.R. 2234 has generated a cross-section of support. The county 
supervisor on the Santa Cruz County Board of Supervisors whose district 
includes the park has expressed support. Local community groups that 
have expressed support for the legislation include the Friends of the 
Santa Cruz River, the Anza Trail Coalition and the Tubac Historical 
Society.
    We have discovered that there is a discrepancy between the name and 
number of the map showing this proposed boundary expansion and the map 
reference in the bill. In order to make the bill language consistent 
with the map we suggest that the map title on page 3, line 9 and 10 be 
changed to read ``Tumacacori National Historical Park, Arizona Proposed 
Boundary Revision 2001'' and the map number on page 3, line 11 be 
changed to read ``310/80,044''.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                 ______
                                 
    Mr. Soukup. I would like to proceed with my comments. 
Again, I will just summarize our written testimony.
    Mr. Chairman, we thank you for the opportunity to present 
the views of the Department of Interior on H.R. 2238, to 
authorize the Secretary of the Interior to acquire Fern Lake 
and the surrounding watershed in the States of Kentucky and 
Tennessee for addition to Cumberland Gap National Historical 
Park.
    We extend our thanks to Congressman Rogers for his interest 
in this bill and his ongoing interest in the Cumberland Gap 
National Historical Park.
    The Department supports H.R. 2238. The Department does have 
one concern about the National Park Service taking on a new 
responsibility--in this case assuring the continued supply of 
safe, clean drinking water for the city of Middlesboro, 
Kentucky.
    H.R. 2238 would authorize the Secretary of the Interior to 
purchase a 4,500-acre area located in Kentucky and Tennessee, 
adjacent to Cumberland Gap National Historical Park, and that 
contains Fern Lake and its watershed.
    Existing law allows the National Park Service to acquire 
this area, but not by purchase with appropriated funds. H.R. 
2238 would allow the National Park Service to acquire the area 
by the use of donated or appropriated funds as well as by 
donation or by a land exchange. Purchase of the property would 
be allowed only with the consent of the owner.
    The authority to purchase the Fern Lake area is necessary 
because the owner of the 150-acre lake and about 600 acres of 
land surrounding the lake intends to sell the property. The 
remainder of the 4,500 acres of the watershed is not on the 
market at this time, but if it becomes available for purchase 
in the future, this legislation would provide the necessary 
authority for its acquisition.
    In addition, H.R. 2238 would allow the Secretary of the 
Interior to enter into contracts to facilitate the sale and 
distribution of water from Fern Lake to the city of 
Middlesboro, Kentucky and environs. It would allow the proceeds 
from the sale of the water to be used for the park. The 
National Park Service would be required to manage recreational 
use of the lake in a manner that is consistent with protecting 
the lake as a source of safe, clean drinking water.
    The National Park Service policies generally prohibit the 
use of water resources in parks for entities outside of parks. 
However, Fern Lake, a reservoir constructed in 1893, is 
currently the sole source of water for Middlesboro, and we 
believe it is appropriate in this case to continue to allow 
Middlesboro to draw water from this source, since this is a 
traditional use and does not threaten park resources.
    The bill attempts to provide flexibility to allow different 
options for ownership of the water supply, allowing the 
decision on the water ownership to be made as part of the 
negotiations for the purchase of Fern Lake.
    We agree with this approach and the approach that the 
legislation takes in terms of providing this flexibility. 
However, we believe that language concerning the disposition of 
water after acquisition needs clarification. And we plan to 
submit an amendment for your consideration.
    With all of these options we need to be careful about the 
National Park Service taking on new responsibilities that are 
outside of its core mission or area of expertise and that are 
not assumed in current funding levels.
    Cumberland Gap National Historical Park, established by the 
act of June 11th, 1940, commemorates the migration of hundreds 
of thousands of people who moved from the populous eastern 
States, west across the Appalachian Mountains by way of 
Cumberland Gap, to settle land in Kentucky, Tennessee, and 
beyond in the late 18th and 19th centuries.
    The park currently consists of about 20,000 acres in 
Virginia, Kentucky and Tennessee, and is authorized to include 
up to 50,000 acres. The park's most visited attraction is 
Pinnacle Overlook where visitors can see Kentucky, Virginia, 
and Tennessee and gain an appreciation of the landscape that 
played such a critical role in the development of our Nation. 
Fern Lake is visible from that overlook.
    Having Fern Lake under National Park Service management 
would produce many benefits. It would protect the watershed 
from future threats of development and thus help protect for 
the long term the landscape and the views the park is known 
for.
    It would allow for public recreational use of the lake that 
is currently only available to private club members. It would 
also allow the development of more hiking trails in the park.
    These additional attractions would thus increase 
recreational opportunities in a region that is working hard to 
generate tourism.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog, and is concerned about the development and 
life cycle operational costs associated with expansion of parks 
already included in the National Park System.
    Adding Fern Lake watershed to Cumberland Gap National 
Historical Park would entail land acquisition costs as well as 
additional operating and maintenance costs. The owner of the 
lake and surrounding properties, approximately 750 acres, has 
offered the property for $5 million. But the actual cost of the 
property will not be known until an appraisal is done and a 
determination is made about whether or not to acquire the water 
supply.
    If, however, the National Park Service acquires the water 
supply, some revenue would accrue to the park from the sale of 
the water. And I understand that is roughly about $85,000 per 
year. In addition, we anticipate some additional operating 
costs and maintenance costs associated with making the newly 
acquired land available for public use.
    Establishing trails and building or remodeling facilities 
around the lake would entail one-time development costs. There 
would be recurring annual costs associated with staff needed 
for resource protection and visitor services in the new area. 
We do not have an estimate of these costs at this time, but we 
know that if the full 4,500 acres of the watershed is acquired, 
it would increase the size of the park by about 22 percent.
    In summary, the Department supports H.R. 2238 as a means to 
help assure protection of the natural and cultural resources of 
Cumberland Gap National Historical Park and to provide 
important benefits for the surrounding communities through the 
acquisition of land from willing sellers.
    Mr. Chairman, that concludes my remarks. I would be pleased 
to answer questions.
    [The prepared statement of Mr. Soukup on H.R. 2238 
follows:]

 Statement of Dr. Michael Soukup, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
                                Interior

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 2238, to authorize the Secretary 
of the Interior to acquire Fern Lake and the surrounding watershed in 
the States of Kentucky and Tennessee for addition to Cumberland Gap 
National Historical Park.
    The Department supports H.R. 2238, but is concerned about the 
National Park Service taking on new responsibilities, such as 
overseeing municipal water supply management, that are outside of its 
core mission and area of expertise. This legislation would help protect 
the magnificent landscape at Cumberland Gap National Historical Park 
and provide additional recreational opportunities for visitors. It 
would also help assure the continued supply of safe, clean drinking 
water for the city of Middlesboro, Kentucky.
    H.R. 2238 would authorize the Secretary of the Interior to purchase 
a 4,500-acre area located in Kentucky and Tennessee adjacent to 
Cumberland Gap National Historical Park that contains Fern Lake and its 
watershed. Existing law allows the National Park Service to acquire 
this area, but not by purchase with appropriated funds. H.R. 2238 would 
allow the National Park Service to acquire the area by use of donated 
or appropriated funds, as well as by donation, or by a land exchange. 
Purchase of the property would be allowed only with the consent of the 
owner.
    The authority to purchase the Fern Lake area is necessary because 
the owner of the 150-acre lake and about 600 acres of land surrounding 
the lake intends to sell the property. The remainder of the 4,500 acres 
of the watershed is not on the market at this time, but if it becomes 
available for purchase in the future, this legislation would provide 
the necessary authority for its acquisition.
    In addition, H.R. 2238 would allow the Secretary of the Interior to 
enter into contracts to facilitate the sale and distribution of water 
from Fern Lake for the City of Middlesboro, Kentucky and environs. It 
would allow the proceeds from the sale of the water to be used for the 
park. The National Park Service would be required to manage 
recreational use of the lake in a manner that is consistent with 
protecting the lake as a source of safe, clean drinking water.
    National Park Service policies generally prohibit the use of water 
resources in parks for entities outside of parks. However, Fern Lake, a 
reservoir constructed in 1893, is currently the sole source of water 
for Middlesboro, and we believe it is appropriate in this case to 
continue to allow Middlesboro to draw water from this source, since 
this is a traditional use and does not threaten park resources.
    The bill attempts to provide flexibility to allow different options 
for ownership of the water supply, allowing the decision on the water 
ownership to be made as part of the negotiations for the purchase of 
Fern Lake. One possibility would be for the National Park Service to 
acquire the water supply, in which case the Service would contract with 
a utility for the distribution of the water. Another option would be 
for the National Park Service to acquire only an interest in the water 
while another entity, such as the water utility, acquires the water 
supply. We agree with the approach that the legislation takes in terms 
of providing this flexibility; however, we believe that language 
concerning the disposition of water after acquisition needs 
clarification, and we plan to submit an amendment for your 
consideration. With all of these options, we need to be careful about 
the National Park Service taking on new responsibilities that are 
outside of its core mission or area of expertise and that are not 
assumed in current funding levels.
    Cumberland Gap National Historical Park, established by the Act of 
June 11, 1940 (54 State 262; 16 U.S.C. 261 et seq.), commemorates the 
migration of hundreds of thousands of people who moved from the 
populous eastern states west across the Appalachian Mountains by way of 
Cumberland Gap to settle land in Kentucky, Tennessee, and beyond in the 
late 18th and early 19th Centuries. The park currently consists of 
about 20,000 acres in Virginia, Kentucky, and Tennessee, and is 
authorized to include up to 50,000 acres. The park's most visited 
attraction is Pinnacle Overlook, where visitors can see Kentucky, 
Virginia, and Tennessee and gain an appreciation of the landscape that 
played such a critical role in the development of our nation. Fern Lake 
is visible from the overlook.
    The Fern Lake watershed has been a focal point for the Department 
of the Interior for several years. In 1996, after the Office of Surface 
Mining prepared a comprehensive environmental impact statement on 
proposed surface coal mining on the Tennessee side of the watershed, 
the Department declared the area unsuitable for that purpose. In 1997, 
after the State of Kentucky issued a permit to mine the Kentucky 
portion of the watershed, the National Park Service successfully 
appealed the permit. When the owner decided to sell the property last 
year, local residents began expressing support for having the property 
added to the National Park System.
    Having Fern Lake under National Park Service management would 
produce many benefits. It would protect the watershed from threats of 
future development and thus help protect for the long term the 
landscape and views the park is known for. It would allow for public 
recreational use of a lake that is currently available only to private 
club members. It would also allow the development of more hiking trails 
in the park. These additional attractions would thus increase 
recreational opportunities in a region that is working hard to generate 
tourism. And, it would ensure that Fern Lake remains a source of clean, 
safe drinking water.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog, and is concerned about the development and life-
cycle operational costs associated with expansion of parks already 
included in the National Park System. Adding the Fern Lake watershed to 
Cumberland Gap National Historical Park would entail land acquisition 
costs, as well as additional operating and maintenance costs.
    The owner of the lake and surrounding property (approximately 750 
acres) has offered the property for $5 million, but the actual cost of 
the property will not be known until an appraisal is done and a 
determination is made about whether or not to acquire the water supply. 
If, however, the National Park Service acquires the water supply, some 
revenue would accrue to the park from the sale of the water. According 
to information from the city of Middlesboro, the current owner receives 
approximately $85,000 annually from the sale of water from Fern Lake. 
Any revenue, however, would likely be offset by increased operational 
costs, so this could result in a net cost to the National Park Service.
    In addition, we anticipate some additional operations and 
maintenance costs associated with making the newly acquired land 
available for public use. Establishing trails and building or 
remodeling facilities around the lake would entail one-time development 
costs. There would be recurring annual costs associated with staff 
needed for resource protection and visitor services in the new area. We 
do not have an estimate of those costs at this time, but we note that 
if the full 4,500 acres of the watershed is acquired, it would increase 
the size of the park by about 22 percent. The current annual base 
funding for Cumberland Gap National Historical Park is $1.8 million.
    In summary, the Department supports H.R. 2238 as a means to help 
assure protection for the natural and cultural resources of Cumberland 
Gap National Historical Park and to provide important benefits for the 
surrounding communities, through the acquisition of land from willing 
sellers.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Doctor. Next up is Mrs. Elise 
Russell who is here to speak on 2234. Thank you for coming.

 STATEMENT OF ELISE RUSSELL, LEGISLATIVE ANALYST, CONSERVATION 
 POLICY, NATIONAL PARKS CONSERVATION ASSOCIATION, WASHINGTON, 
                              D.C.

    Ms. Russell. Thank you. Mr. Chairman, members of the 
Committee, my name is Elise Russell. I am a legislative analyst 
for the National Parks Conservation Association, and I am here 
today on behalf of NPCA as well as the Archeological 
Conservancy and the Sonoran Institute.
    Our organizations appreciate this opportunity to state our 
strong support for H.R. 2234. We commend Representative Pastor 
for introducing this legislation, and we thank the Chairman for 
scheduling this hearing.
    We urge the Subcommittee to act quickly and favorably on 
this bill. We also recommend two minor amendments to the bill 
that we think will encourage a more comprehensive approach to 
preserving Tumacacori National Historical Park.
    Tumacacori is only 46 acres in size, but it is truly one of 
the gems of the U.S. National Park System. It is a beautiful, 
well preserved resource with great historical integrity, a 
tranquil site that is inspiring to visitors. This legislation 
will add approximately 310 acres to the park's main unit at San 
Jose de Tumacacori Mission.
    These lands which are to the north and south of the main 
unit include or contain portions of the original mission, which 
include historic fields, orchards and acequia systems.
    The Juan Bautista De Anza National Historic trail also 
traverses these proposed additions. There is also riparian land 
along the Santa Cruz River, with significant national resource 
values.
    There are thriving populations of plants and animals that 
are native to the area, as well as a significant population of 
the yellow-billed coo-coo, which is a species of concern to the 
State of Arizona.
    Permanently protecting these lands will not only save 
irreplaceable parts of America's heritage, but it will also 
dramatically benefit the public by permitting the National Park 
Service to diversify visitor experiences and enrich their 
educational programs to the public.
    Key parts of the Tumacacori story, particularly those of 
how different peoples interacted and ultimately learned to live 
together, have important lessons in today's challenging times. 
It is the great triumph of America, honoring diversity, a 
legacy that lives on.
    In a way, improving Tumacacori is just another tangible way 
of keeping Americans united, caring about each other and our 
collective history. We must act now to save these lands from 
impending development which threatens to ruin them forever. 
Subdivisions are marching toward the park.
    As Representative Pastor and Mr. Soukup have said, these 
lands are available today from willing sellers. It is unlikely 
that they will ever easily be available again, and the costs to 
protect them will never be cheaper. Land prices in this area 
are headed in one direction: Up.
    Acting with foresight today will prevent having to act in 
haste tomorrow. One of the amendments that NPCA recommends 
pertains to the Guevavi Mission. This is a very small unit of 
Tumacacori. It is only 10 acres. There is a clear need to add 
some additional lands to better facilitate public access as 
well as preserve the scenic integrity of the mission, which is 
extremely vulnerable to development.
    The general management plan, which was approved in 1996 
after extensive public involvement, recommended a 93-acre 
expansion to the Guevavi Mission. Lands adjacent to Guevavi are 
owned by the city of Nogales, which has been a good neighbor to 
the park. And for the last several years there has been 
discussion between the Park Service and the city, whereby the 
Park Service would receive some city lands and the city of 
Nogales would receive some Federal lands closer to Nogales. So 
it would be a win-win situation for both parties as well as for 
the general public.
    So we recommend that there be an amendment to the 
legislation, authorizing and directing the Park Service to work 
with the city of Nogales and other Federal land managers to 
explore the possibilities of a land exchange and get back to 
Congress within a year with their recommendations.
    Our other recommendation is to have an update to the 
general management plan for Tumacacori within the next 3 years. 
And, in conclusion, Mr. Chairman, I would simply say that, 
tragically, every day prehistoric and historic archeological 
sites in the United States are being lost forever. Modern-day 
looters are using backhoes and bulldozers to recover artifacts 
for the international market. Urban development and even some 
agricultural methods are destroying sites.
    Congress has the ability, the opportunity, and the 
responsibility to act to prevent this loss of our heritage 
which will impoverish present and future generations. Enacting 
H.R. 2234 into law will be a marvelous and tangible way, a step 
forward to meet these duties. Future generations will thank you 
for your wisdom to act now.
    And finally, Mr. Chairman, I would just like to say that 
NPCA, for the record, also supports the Fern Lake Conservation 
and Recreation Act of 2001.
    Fern Lake and its watershed will be important additions to 
the Cumberland Gap National Historical Park. The Fern Lake 
watershed is an integral part of the historic landscape that 
visitors come to see. And, additionally, the acquisition of 
this property will protect the vistas from Pinnacle Overlook, 
one of the most valuable scenic resources in the park.
    Thank you very much for this opportunity to testify and 
consider our views.
    Mr. Radanovich. Thank you very much, Ms. Russell. I 
appreciated your testimony.
    [The prepared statement of Ms. Russell follows:]

    Statement of Elise Russell, Legislative Analyst, National Parks 
                        Conservation Association

    Mr. Chairman and members of the committee, I am Elise Russell, 
Legislative Analyst for the National Parks Conservation Association 
(NPCA). I am testifying today on behalf of NPCA, The Archaeological 
Conservancy and the Sonoran Institute.
    Our organizations appreciate the opportunity to state our strong 
support of H.R. 2234. We commend Rep. Pastor for introducing this 
important legislation and thank the Chairman for scheduling this 
hearing. NPCA urges the subcommittee to act favorably and quickly on 
this bill. We also recommend two minor amendments to the bill that will 
encourage a more comprehensive approach to preserving Tumac cori 
National Historical Park.
    Tumac cori is only 46 acres in size but it is one of the true gems 
of the U.S. National Park System. The park is precious a well-preserved 
resource with great historic integrity, a beautiful and tranquil site 
that is inspiring to visitors.
    H.R. 2234 would add approximately 310 acres to the park's main unit 
at San Jose de Tumacacori Mission. These lands, located both to the 
north and south of the main park unit, contain portions of the original 
mission, including historic fields, orchards and acequia systems.
    The Juan Bautista De Anza National Historic Trail also traverses 
the proposed addition.
    In addition, there is riparian land along the Santa Cruz River with 
significant natural resource values. This land has thriving populations 
of plants and animals native to the area, including a significant 
population of yellow-billed cuckoos, a ``species of concern'' for the 
state of Arizona.
    Permanently protecting these lands will not only save irreplaceable 
parts of America's heritage, it will dramatically improve benefits to 
the public by permitting the National Park Service to diversify visitor 
experiences and enrich its educational programs for the public.
    Key parts of the Tumacacori story, particularly those about how 
different peoples interacted and ultimately learned to live together, 
have lessons in today's challenging times. This is the great triumph of 
America honoring diversity a legacy that lives on. In a way, improving 
Tumac cori is another tangible way to keep America united, caring about 
each other and our collective history.
    We must act now to save these lands from impending development, 
which threatens to ruin them forever. Subdivisions are marching 
directly toward the park. These lands are available today from willing 
sellers who want to protect the historic mission and its environment. 
It is unlikely these properties will ever be easily available again and 
the cost to protect these lands permanently will never be cheaper. Land 
prices in this area are headed only one way: up. Acting with foresight 
today will prevent having to act in haste tomorrow.
Suggested Amendment: Guevavi Mission
    Congress should add a brief section pertaining to Guevavi Mission.
    Because the Guevavi site is so small (approximately 10 acres), 
there is a clear need to add additional lands in order to facilitate 
better public access and preserve the scenic integrity of the mission, 
which is extremely vulnerable to development. The current general 
management plan (GMP) for Tumac cori NHP, approved in 1996 after 
extensive public involvement, recommends a 93-acre boundary expansion 
for the Guevavi unit.
    Lands adjacent to Guevavi are owned by the City of Nogales. The 
City has been a good neighbor to the park, but for several years now, 
there has been discussion about a simple trade whereby the National 
Park Service would receive some City lands, and the City would receive 
other federal lands, closer to Nogales, in return. This would be a win-
win for all parties and the general public.
    Therefore, NPCA recommends the addition of a brief section to H.R. 
2234, which should authorize and direct the National Park Service to 
work with the City of Nogales and other federal land management 
agencies to explore the possibilities of such an exchange and then 
report back to Congress within one year.
Suggested Amendment: General Management Plan
    NPCA also recommends requiring an update to the general management 
plan within three years.
Conclusion
    In conclusion, Mr. Chairman, I would simply say that tragically, 
every day, prehistoric and historic archaeological sites in the United 
States are lost forever. Modern-day looters use backhoes and bulldozers 
to recover artifacts for the international market. Urban development 
and some agricultural methods destroy sites.
    Congress has the ability, the opportunity, and the responsibility 
to prevent this loss of our heritage, which impoverishes both present 
and future generations. Promptly enacting H.R. 2234 into law will be a 
marvelous and tangible step forward to meet these duties. Future 
generations will thank you for your wisdom to act now.
    Also, for the record, NPCA would like to voice support for another 
piece of legislation being discussed here today: H.R. 2238, the Fern 
Lake Conservation and Recreation Act of 2001. Fern Lake and its 
watershed will be important additions to Cumberland Gap National 
Historical Park. The Fern Lake watershed is an integral part of the 
historic landscape that visitors come to see. Additionally, the 
acquisition of this property will protect the vista from Pinnacle 
Overlook, one of the park's most valuable scenic resources.
    Thank you for inviting NPCA to appear before you today and for 
considering our views. I would be happy to answer any questions.
                                 ______
                                 
    Mr. Radanovich. Next up is Karla Bowling. Karla, welcome to 
the hearing. And, of course, you are here to speak on the 
acquisition of Fern Lake, H.R. 2238.
    Please begin and tell us what you know.

  STATEMENT OF KARLA BOWLING, EXECUTIVE DIRECTOR, BELL COUNTY 
                CHAMBER OF COMMERCE, MIDDLESBORO

    Ms. Bowling. Good afternoon, Chairman Radanovich and 
Subcommittee members. My name is Karla Bowling. I am the 
executive director of the Bell County Chamber of Commerce. I am 
here to represent the citizens of Middlesboro, Kentucky, to 
lend support for House Resolution 2238 authorizing the 
Secretary of the Interior to acquire Fern Lake and the 
surrounding watershed for addition to Cumberland Gap National 
Historical Park.
    First of all, let me say that it is truly an honor to be 
asked to appear before you today in this small yet significant 
role in our democratic process. I truly appreciate the service 
you provide to the citizens of our country and especially the 
unity you have shown which has become a model for the rest of 
our Nation.
    The initiative that brings us here today would accomplish 
several objectives and strike a delicate balance in promoting 
the interests of business and economic development while at the 
same time protecting our precious natural resources. Far from 
just helping the citizens of Middlesboro, acquiring Fern Lake 
would benefit the entire region, and I would venture to say the 
hundreds of thousands of tourists who visit our part of the 
country each year.
    This piece of legislation would help us to further 
capitalize on the breathtaking beauty of our natural resources 
through tourism initiatives, preserve and protect the 
environment, and increase the economic viability of our people.
    From my perspective as a Chamber of Commerce director, it 
almost seems too good to be true. But, taken piece by piece, it 
is logical and makes great business sense.
    Allow me to briefly address some of these points. About 5 
years ago, the lake and adjacent watershed was auctioned and 
purchased by a local coal company. The company applied for 
permits to mine the coal on the watershed. But these permits 
were denied due to the inability to ensure that the water 
supply would be protected. It was at this time that the city 
and park became acutely aware of how vulnerable that piece of 
property was. Protecting the integrity of the water as well as 
the beauty of the viewshed from the adjacent park overlook has 
proven to be a daunting task. Acquiring the land and 
incorporating it into the national park would ensure that the 
water supply would be protected for generations to come.
    Our Congressman has made great progress in Kentucky to 
bring potable water to rural areas. We must not regress and 
threaten this water source for the more than 20,000 residents 
who depend on Fern Lake as their sole supply of fresh, clean 
water. Our land, our people, and our natural resources are too 
precious to leave unprotected.
    Not only is our water supply important to our citizens, but 
it is crucial to the viability of some of our area's largest 
employers. Cumberland Gap Provision Company produces ham 
products and also manufactures Highlander Ice, both with a 
retail base reaching across America.
    Water purity is imperative in the curing, smoking, and 
packaging processes of their hams. It goes without saying that 
the purity of the local water supply greatly affects the taste 
of all of their products. These two companies employ more than 
375 people and have recently invested more than $14 million to 
expand their facilities.
    Another company that depends on the quality water supply is 
Middlesboro Coca-Cola Bottling. These companies are significant 
contributors to the local economy and the quality of life for 
our citizens.
    We can't afford to jeopardize the livelihood of our city's 
largest employers, and, most importantly, the families that 
rely on these good paying jobs.
    Acquisition of this land also makes sense when addressing 
the need to generate park revenues. Profit from the sale of 
water to the local water utility is approximately $85,000 per 
year. Money could be earmarked to go back into Cumberland Gap 
National Historical Park, to be used for trail maintenance, 
facilities upkeep, recreational needs, staffing and other 
related expenses.
    Now, on to the issue of promoting additional recreational 
opportunities and ecotourism. In the fast-paced, stressful 
world we live in today, many tourists are looking for a way to 
get away from it all. They are looking for a quiet respite from 
their cares and worries: simple vacations, a reconnection with 
nature, and a return to simplicity.
    More and more Americans are looking for the kind of getaway 
that the Fern Lake property could provide if properly 
developed. The recreational possibilities are endless and could 
all be in keeping with the ecologically sound parameters set 
forth by national park guidelines.
    In fact, the lake already functions as a small private 
fishing and boating club, where a modest pavilion is used for 
various community activities, including weddings, family 
reunions and picnics. Future plans could include a lodge to 
accommodate corporate retreats, business and government 
conferences, a wildlife or waterfowl observatory, fitness and 
nature trails, youth camps, scouting, and other functions that 
could be promoted to bring in additional tourism and 
recreational revenues.
    The national park is the third most visited attraction in 
our State. Moreover, tourism is the third largest industry in 
Kentucky, bringing in revenues of almost $9 billion annually. 
Although the Nation as a whole is experiencing a short-turn 
decline in tourism as a result of the tragic events of 
September 11th, we expect to maintain, if not increase our 
tourism share because of the rural nature of tourist 
destinations in our region.
    In fact, in the past few months we have had an influx of 
visitors and increase for tourist information packets from 
places such as Tampa, Atlanta, Cincinnati, New York, New 
Orleans, Nashville, Asheville, and Jacksonville, to name just a 
few.
    Tourism revenues have the potential to play a significant 
role in the reversal of our economic decline in Appalachia. We 
work extremely well with our national park and share a similar 
vision of how to promote our heritage and expand tourism.
    In closing, let me make one last point. Before you on the 
easel, you have some exquisite photos of the property that we 
are discussing today. As you stand at the Pinnacle Overlook, 
you are 2,440 feet above sea level, the highest point above the 
Cumberland Gap.
    Fern Lake and the untouched beauty of the mountains 
surrounding you are an integral part of the breathtaking view 
that lies before you. I imagine this is similar to what our 
ancestors saw as they stood in this spot hundreds of years ago. 
As far as the eye can see, the pristine beauty of our heritage 
surrounds you.
    We cannot take the chance of letting this precious resource 
slip through our fingers. In the past, we have made the mistake 
of not protecting our environment and the natural beauty it 
provides to nourish our souls. This is a wonderful opportunity.
    Seldom do we see such synergy between economic development, 
tourism, and the preservation of our natural resources. We 
wholeheartedly support this initiative. Thank you very much for 
your time.
    Mr. Radanovich. Thank you very much, Ms. Bowling.
    [The prepared statement of Ms. Bowling follows:]

Statement of Karla Bowling, Executive Director, Bell County Chamber of 
                    Commerce, Middlesboro, Kentucky

    Good afternoon Chairman Radanovich and Subcommittee members. My 
name is Karla Bowling; I am the Executive Director of the Bell County 
Chamber of Commerce. I am here to represent the citizens of 
Middlesboro, Kentucky, to lend support for House Resolution 2238 
authorizing the Secretary of the Interior to acquire Fern Lake and the 
surrounding watershed for addition to Cumberland Gap National 
Historical Park.
    First of all, let me say that it is truly an honor to be asked to 
appear before you today in this small, yet significant role in our 
democratic process. I appreciate the service you provide to the 
citizens of our country and especially the unity you have shown which 
has become a model for the rest of our nation.
    The initiative that brings us here today would accomplish several 
objectives and strike a delicate balance in promoting the interests of 
business and economic development while at the same time protecting our 
precious natural resources.
    Far from just helping the citizens of Middlesboro, acquiring Fern 
Lake would benefit the entire region and I would venture to say the 
hundreds of thousands of tourists who visit our part of the country 
each year.
    This piece of legislation would help us to further capitalize on 
the breathtaking beauty of our natural resources through tourism 
initiatives, preserve and protect the environment, and increase the 
economic viability of our people. From my perspective as a Chamber of 
Commerce Director, it almost seems too good to be true. But taken piece 
by piece, it is logical and makes great business sense. Allow me to 
briefly address some of these points.
    About five years ago, the lake and adjacent watershed was auctioned 
and purchased by a local coal company. The company applied for permits 
to mine the coal on the watershed, but these permits were denied due to 
the inability to ensure that the water supply would be protected. It 
was at this time that the city and the park became acutely aware of how 
vulnerable that piece of property was. Protecting the integrity of the 
water as well as the beauty of the viewshed from the adjacent park 
overlook would prove to be a daunting task.
    Acquiring the land and incorporating it into the National Park 
would ensure that the water supply would be protected for generations 
to come. Our Congressman has made great progress in Kentucky to bring 
potable water to rural areas. We must not regress and threaten this 
water source for the more than 20,000 residents who depend on Fern Lake 
for their sole supply of fresh, clean water. Our land, our people, and 
our natural resources are too precious to leave unprotected.
    Not only is our water supply important to our citizens, but it is 
crucial to the viability of some of our area's largest employers. 
Cumberland Gap Provision Company produces ham products and also 
manufactures Highlander Ice--both with a retail base reaching across 
America. Water purity is imperative in the curing, smoking, and 
packaging processes of their hams. It goes without saying that the 
purity of the local water supply greatly effects the taste of all of 
their products. These two companies employ more than 375 people and 
have recently invested more than $14 million to expand their 
facilities. Another company that depends on a quality water supply is 
Middlesboro Coca-Cola Bottling. These companies are significant 
contributors to the local economy and quality of life for our citizens. 
We can't afford to jeopardize the livelihood of our city's largest 
employers and most importantly the families that rely on these good-
paying jobs.
    Acquisition of this land also makes sense when addressing the need 
to generate Park revenues. Profit from the sale of water to the local 
water utility is approximately $85,000 per year. Money could be 
earmarked to go back into Cumberland Gap National Historical Park to be 
used for trail maintenance, facilities upkeep, recreational needs, 
staffing, and other related expenses.
    Now on to the issue of promoting additional recreational 
opportunities and eco-tourism. In the fast-paced, stressful world we 
live in today, many tourists are looking for a way to ``get away from 
it all''. They are looking for a quiet respite from their cares and 
worries, simple vacations, a reconnection with nature, and a return to 
simplicity. More and more Americans are looking for the kind of getaway 
that the Fern Lake property could provide if properly developed
    The recreational possibilities are endless and could all be in 
keeping with the ecologically sound parameters set forth by National 
Park guidelines. In fact, the lake already functions as a small private 
fishing and boating club, where a modest pavilion is used for various 
community activities including weddings, family reunions, and picnics. 
Future plans could include a lodge to accommodate corporate retreats, 
business and government conferences, a wildlife or waterfowl 
observatory, fitness and nature trails, youth camps, scouting, and 
other functions that could be promoted to bring in additional tourism 
and recreational revenues.
    The National Park is the third most visited attraction in our 
state. Tourism is the third largest industry in Kentucky, bringing in 
revenues of almost $9 billion annually. Although the nation as a whole 
is experiencing a decline in tourism as a result of the tragic events 
of September 11th, we expect to maintain, if not increase our tourism 
share because of the rural nature of tourist destinations in our 
region. In fact, in the past months we have had an influx of visitors 
and inquiries for tourist information packets from places such as 
Tampa, Atlanta, Cincinnati, New York, New Orleans, Nashville, 
Asheville, and Jacksonville, to name just a few.
    Tourism revenues have the potential to play a significant role in 
the reversal of our economic decline in Appalachia. We work extremely 
well with our National Park and share a similar vision of how to 
promote our heritage and expand tourism.
    In closing, let me make one last point. On the easel before you are 
some exquisite photos of the property we are discussing today. As you 
stand at the Pinnacle Overlook, you are at 2,660 feet above sea level--
the highest point above the Cumberland Gap. Fern Lake and the untouched 
beauty of the mountains surrounding it are an integral part of the 
breathtaking view that lies before you. I imagine this is similar to 
what our ancestors saw as they stood in this spot hundreds of years 
ago. As far as the eye can see, the pristine beauty of our heritage 
surrounds you. We cannot take the chance of letting this precious 
resource slip through our fingers. In the past, we have made the 
mistake of not protecting our environment and the natural beauty it 
provides to nourish our souls.
    This is a wonderful opportunity. Seldom do we see such synergy 
between economic development, tourism, and the preservation of our 
natural resources. We wholeheartedly support this initiative!
    Thank you for your time.
                                 ______
                                 
    Mr. Radanovich. Any questions? Mr. Hefley.
    Mr. Hefley. Yes, thank you. I thought all of your testimony 
was very good. Ms. Russell, I thought your testimony was very 
good, although I have to tell you that I have learned over the 
years not to put any credence in anything that comes out of 
your organization. I have no trust or confidence in your 
organization. If the organization would like to talk to me 
about it at some point, I would be happy to sit down with them 
and do it. But I thought your testimony was very good.
    Ms. Bowling, I would say to you, first of all, I think both 
of these projects sound like they are laudable projects and we 
probably should go ahead and pursue them. But I would say to 
you, like I did to the Congressman a few moments ago, you need 
to make sure that the Congressman makes sure that that water 
supply is tied up for Middlesboro. If you don't, in some 
administration down the line, someone is going to decide that 
there is a fish or a grub or a worm or something there that is 
more important and more valuable than are the people of your 
community, and therefore the water couldn't possible be given 
to the people of your community. So you need to make sure that 
in law that is tied up. And I would pass that on to you.
    And, Dr. Soukup with the Fern Lake project, I see a lot of 
land value there. I see recreational value from the lake. I see 
development value around the lake. I see mining value, perhaps, 
since they tried to get mining permits, maybe timber value 
there. So I can understand why that amount of acreage might be 
worth $5 million.
    On the other project, it appears to me that is mainly 
worthless desert. Worthless, except for the historical 
significance that we are trying to save. And I would hope that 
we are not going to pay more than a rancher would pay for it, 
or a miner or a developer, if there is any development.
    Now, I know there is development across the road from the 
mission, but I would hope that the Federal Government, just 
because we are the Federal Government and we have an endless 
supply of money, are not going to pay more for that than people 
locally would pay for it for some economic value. Is it your 
sense that we can make sure that that doesn't happen?
    Mr. Soukup. We have a fairly rigorous appraisal process in 
place that has to be executed for any property that we buy. We 
are not allowed to pay more than the appraisal price without 
the permission of Congress. So we have a fairly strict process 
that gets a lot of scrutiny and we think it is pretty good.
    Mr. Hefley. Well, the key to what you just said is without 
the approval of Congress. And you have got--you know, Congress 
can approve things because a powerful member of the 
Appropriations Committee might want this project in his home 
district or something. So we have got to be very careful.
    But in saying that, I don't want to take away from the 
project. I think the project sounds to me like it has enormous 
value. Those are the kind of values that I would like for us to 
protect. And, gosh, you have got this wonderful mission there 
already as the hub of it.
    Let me ask you, though, about the orchard. You are talking 
about $100,000 for an orchard. I wonder what in the world kind 
of orchard are you going to produce? I am sure the original 
settlers never thought of that as a $100,000 orchard. What kind 
of orchard is that going to be for that kind of money?
    Mr. Soukup. That is an excellent question. That is the 
estimate that we got from the park. I think that is a bit high. 
I am little bit concerned myself about the ongoing upkeep of it 
being sort of a process that I am not so sure that we have 
looked at fully.
    But that is the rough estimate, I would think, for the 
park. I don't know what that purchase is, but we could check 
into it.
    Mr. Hefley. I hope it is very, very rough estimate, because 
that sounds like an awful lot of money just to show that they 
used to raise pears on that land.
    I think that is all that I have, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Hefley. There being no other 
questions, this hearing is adjourned. I want to thank you all 
very much for your valuable testimony. And we are adjourned. 
Thank you.
    [Whereupon, at 3 p.m., the Subcommittee was adjourned.]

</pre></body></html>
